   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106



October 5, 2011

Report Number: A-07-11-01097

Ms. Susan E. Birch
Executive Director
Colorado Department of Health Care Policy and Financing
1570 Grant Street
Denver, CO 80203

Dear Ms. Birch:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Costs for Inpatient Services in the Colorado
Medicaid Family Planning Program. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Chris Bresette, Audit Manager, at (816) 426-3591 or through email at
Chris.Bresette@oig.hhs.gov. Please refer to report number A-07-11-01097 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Susan E. Birch

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




   REVIEW OF COSTS FOR
 INPATIENT SERVICES IN THE
    COLORADO MEDICAID
 FAMILY PLANNING PROGRAM




                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-07-11-01097
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Department of Health Care
Policy and Financing (the State agency) is responsible for administering the Medicaid program.

The amount that the Federal Government reimburses to State Medicaid agencies, known as
Federal financial participation (FFP) or Federal share, is determined by the Federal medical
assistance percentage (FMAP), which varies based on a State’s relative per capita income. The
State agency’s FMAP rates ranged from 50.00 percent to 61.59 percent for claims paid during
Federal fiscal years (FY) 2006 through 2009 (October 1, 2005, through September 30, 2009).

Federal requirements also allow for various specified services to be reimbursed at higher FFP
rates. Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) and 433.15(b)(2) authorize
Federal reimbursement at an enhanced 90-percent rate (90-percent rate) for family planning
services. Section 4270 of the CMS State Medicaid Manual describes family planning services as
those that prevent or delay pregnancy or otherwise control family size.

The State agency receives Federal reimbursement at the 90-percent rate for family planning
services performed in an inpatient setting (family planning inpatient services). In Colorado, an
inpatient sterilization procedure for an individual under the age of 21 is not a Medicaid covered
benefit. Further, Federal and State regulations require that informed consent for a sterilization
procedure be given at least 30 days before the expected date of delivery. During FYs 2006
through 2009, the State agency had claims for family planning inpatient services of $2,766,536
($2,489,882 Federal share).

OBJECTIVE

Our objective was to determine whether the State agency claimed costs for family planning
inpatient services during FYs 2006 through 2009 pursuant to Federal and State requirements.

SUMMARY OF FINDINGS

The State agency did not always claim costs for family planning inpatient services during FYs
2006 through 2009 pursuant to Federal and State requirements. Of the 100 claims in our sample,
97 qualified as family planning services and were allowable for reimbursement at the 90-percent
rate. However, the 3 remaining claims in our sample contained errors totaling $2,295 in
unallowable Federal reimbursement. Specifically, 2 of the claims lacked proper consent for
inpatient sterilization procedures and were therefore not allowable for any Federal



                                                 i
reimbursement. The other claim was not allowable for Federal reimbursement at the 90-percent
rate (but was allowable for Federal reimbursement at the FMAP rate) because the service in
question was not performed for a family planning purpose.

These errors occurred because the State agency’s internal controls that would identify which
claims for inpatient services were allowable for Federal reimbursement at the 90-percent rate
were not always effective.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $2,295 to the Federal Government and

    •   strengthen internal controls to ensure that inpatient services costs submitted for Federal
        reimbursement appropriately identify claims that are eligible for reimbursement at the
        90-percent rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described corrective actions that it planned to implement. The State agency’s comments are
included in their entirety as the Appendix.




                                                 ii
                                                 TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION ................................................................................................................. 1

      BACKGROUND ............................................................................................................. 1
            Medicaid Program ............................................................................................ 1
            Colorado Medicaid Program ............................................................................ 1
            Medicaid Coverage of Family Planning Inpatient Services ............................ 1
            Family Planning Inpatient Services Claims in Colorado ................................. 2

      OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
             Objective .......................................................................................................... 2
             Scope................................................................................................................ 2
             Methodology .................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ....................................................................... 3

      UNALLOWABLE FAMILY PLANNING SERVICES ................................................. 4
            Improper Consent for Sterilization Procedures................................................ 4
            Inpatient Service Unrelated to Family Planning .............................................. 4

      INEFFECTIVE CONTROLS........................................................................................... 5

      RECOMMENDATIONS ................................................................................................. 5

      STATE AGENCY COMMENTS .................................................................................... 5

APPENDIX

      STATE AGENCY COMMENTS




                                                                   iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal
and State Governments jointly fund and administer the Medicaid program. At the Federal
level, the Centers for Medicare & Medicaid Services (CMS) administers the program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid
program, it must comply with applicable Federal requirements.

The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), reports actual Medicaid expenditures for each quarter
and is used by CMS to reimburse States for the Federal share of Medicaid expenditures. The
amounts reported on the CMS-64 report and its attachments must be actual expenditures with
supporting documentation.

Colorado Medicaid Program

In Colorado, the Department of Health Care Policy and Financing (the State agency) is
responsible for administering the Medicaid program. The amount that the Federal
Government reimburses to State Medicaid agencies, known as Federal financial participation
(FFP) or Federal share, is determined by the Federal medical assistance percentage (FMAP),
which varies based on a State’s relative per capita income. The State agency’s FMAP rates
ranged from 50.00 percent to 61.59 percent for claims paid during Federal fiscal years (FY)
2006 through 2009 (October 1, 2005, through September 30, 2009).

Medicaid Coverage of Family Planning Inpatient Services

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and
supplies to individuals of childbearing age (including minors who can be considered to be
sexually active) who are eligible under the State plan and who desire such services and
supplies. Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) and 433.15(b)(2)
authorize Federal reimbursement at an enhanced 90-percent rate (90-percent rate) for family
planning services.

Section 4270 of the CMS State Medicaid Manual (the manual) describes family planning
services as those that prevent or delay pregnancy or otherwise control family size. Family
planning services include, but are not limited to, the following items and services: counseling
services and patient education; examination and treatment by medical professionals pursuant
to States’ requirements; devices to prevent conception; sterilization procedures; and infertility
services, including sterilization reversals. Federal regulations require that informed consent
for a sterilization procedure be given at least 30 days before the expected date of delivery.


                                                 1
The State agency receives Federal reimbursement at the 90-percent rate for family planning
services performed in an inpatient setting (family planning inpatient services).

Family Planning Inpatient Services Claims in Colorado

To classify claims that include family planning inpatient services, the State agency uses
indicators such as procedure codes, diagnosis codes, surgical procedure codes, and modifiers.
Based upon these indicators, the State agency allocates the portion of the costs that relates to
family planning. For each claim that includes a sterilization procedure, the State agency
obtains and reviews a consent form before paying that claim. Further, an inpatient
sterilization procedure for an individual under the age of 21 is not a Medicaid covered benefit
in Colorado.

During FYs 2006 through 2009, the State agency had claims for family planning inpatient
services of $2,766,536 ($2,489,882 Federal share). During this same period the State agency
received Federal reimbursement totaling $32,271,332 for all other family planning services,
which we are separately reviewing.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed costs for family planning
inpatient services during FYs 2006 through 2009 pursuant to Federal and State requirements.

Scope

We reviewed $2,766,536 ($2,489,882 Federal share) that the State agency claimed for family
planning inpatient services in Colorado during FYs 2006 through 2009. We did not review
the overall internal control structure of the State agency or the Medicaid program. Rather, we
reviewed only the internal controls that pertained directly to our objective.

We performed fieldwork at the State agency in Denver, Colorado, from March through
November 2010.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, Federal and State regulations, CMS guidance, and
        the State plan;

   •    held discussions with CMS officials to gain an understanding of CMS requirements
        and guidance furnished to State agency officials concerning Medicaid family planning
        claims;


                                                 2
       •   held discussions with State agency officials to gain an understanding of how the State
           agency claimed Medicaid reimbursement for family planning services, including
           family planning inpatient services;

       •   reconciled current-period and prior-period family planning claims reported on the
           CMS-64 reports back to the State agency’s supporting documentation;

       •   selected a simple random sample of costs claimed as family planning inpatient
           services costs for 100 inpatient services claims;

       •   obtained and reviewed the supporting documentation for each sampled claim to
           determine the allowability of the claim for Federal reimbursement;

       •   provided one medical record to our Chief Medical Officer, who performed a medical
           review to determine whether the relevant procedure was performed for a family
           planning purpose as defined by Federal requirements 1; and

       •   discussed the results of our review with State agency officials on August 18, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

The State agency did not always claim costs for family planning inpatient services during FYs
2006 through 2009 pursuant to Federal and State requirements. Of the 100 claims in our
sample, 97 qualified as family planning services and were allowable for reimbursement at the
90-percent rate. However, the 3 remaining claims in our sample contained errors totaling
$2,295 in unallowable Federal reimbursement. 2 Specifically, 2 of the claims lacked proper
consent for inpatient sterilization procedures and were therefore not allowable for any Federal
reimbursement. The other claim was not allowable for Federal reimbursement at the
90-percent rate (but was allowable for Federal reimbursement at the FMAP rate) because the
service in question was not performed for a family planning purpose.

These errors occurred because the State agency’s internal controls that would identify which
claims for inpatient services were allowable for Federal reimbursement at the 90-percent rate
were not always effective.


1
    This record was associated with the service addressed in our second finding.
2
 Our statistical projection policies specify that we project the results of our sample to the universe if we identify
6 or more errors. Because we identified only 3 errors in this sample, we did not project the results and are
questioning only those costs associated with the errors we identified.

                                                            3
UNALLOWABLE FAMILY PLANNING SERVICES

Improper Consent for Sterilization Procedures

Federal regulations (42 CFR § 441.253) state that Federal reimbursement is available in
expenditures for the sterilization of an individual only if “[t]he individual is at least 21 years
old at the time consent is obtained” and “[a]t least 30 days, but not more than 180 days, have
passed between the date of informed consent and the date of the sterilization, except in the
case of premature delivery.…” The same section states that “[i]n the case of premature
delivery, the informed consent must have been given at least 30 days before the expected date
of delivery.”

State regulations (10 Code of Colorado Regulations 2505-10, section 8.730.2.C) state that a
sterilization for an individual who is under the age of 21 is not a Medicaid covered benefit in
Colorado. In addition, section 8.730.2.B requires that, in the case of premature delivery,
informed consent be given at least 30 days before the expected date of delivery.

Contrary to these Federal and State requirements, the State agency improperly claimed $1,747
in Federal reimbursement for 2 inpatient claims with sterilization procedures. For one claim,
the provider obtained consent and performed the sterilization while the patient was under the
age of 21. For the other claim, which included a premature delivery, informed consent was
not given at least 30 days before the expected due date of delivery. These two claims were
not allowable for any Federal reimbursement.

Inpatient Service Unrelated to Family Planning

Section 4270 of the manual defines family planning services as those that prevent or delay
pregnancy or otherwise control family size. Specifically, section 4270(B)(2) of the manual
states: “Only items and procedures clearly provided or performed for family planning
purposes may be [claimed] at the 90 percent rate.” (Emphasis added.)

For family planning services, the U.S. Department of Health and Human Services
Departmental Appeals Board (the DAB) has provided additional guidance regarding Federal
reimbursement at the 90-percent rate. The DAB has ruled that “… the State [agency] bears
the burden of justifying claims for enhanced rates…. It is not enough that the claims could
possibly relate to family planning, or that the diagnoses do not preclude such a determination.
Rather, the State [agency] must affirmatively document that the services were sought for
family planning reasons.” 3

Contrary to the Federal requirement and administrative law ruling, the State agency
improperly claimed Federal reimbursement at the 90-percent rate for 1 inpatient claim that did
not include a service related to family planning. Our medical review determined that the
procedure performed, a laparoscopic sleeve gastrectomy, was not performed for a family
planning purpose. Therefore, the inpatient service costs related to this procedure were not


3
    New York State Department of Social Services, DAB No. 1364 (1992).

                                                       4
allowable for reimbursement at the 90-percent rate (but were allowable for Federal
reimbursement at the FMAP rate), which resulted in $548 in excessive Federal
reimbursement.

INEFFECTIVE CONTROLS

These errors occurred because the State agency’s internal controls that would identify which
claims for inpatient services were allowable for Federal reimbursement at the 90-percent rate
were not always effective. Specifically, the State agency’s process to review consent forms
for sterilization procedures did not always prevent Federal reimbursement in cases when
consent was not obtained pursuant to Federal and State requirements. Also, the State
agency’s internal controls used indicators to automatically classify portions of the costs for
inpatient services as family planning services even if the procedure may have been performed
for another (non-family planning) purpose.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $2,295 to the Federal Government and

    •   strengthen internal controls to ensure that inpatient services costs submitted for
        Federal reimbursement appropriately identify claims that are eligible for
        reimbursement at the 90-percent rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our
recommendations and described corrective actions that it planned to implement. The State
agency’s comments are included in their entirety as the Appendix.




                                                 5
APPENDIX
                                                                                                                                                     Page 1 of 2


                      APPENDIX: STATE AGENCY COMMENTS 




                     COLORADO DEPARTMENT OF HEALTH CARE POLICY & FINANCING
                     iS70 Grant Street, Denver,      co 80203-1818 • (303) 866-2993.          (303) 866-4411 Fax. (303) 866-388311Y
                     John W. Hlckenlooper, Governor. SUsan E. Birch MBA, BSN, RH, ExecutIVe Director




August 25, 2011


Patrick J. Cogley, Regional Inspector General for Audit Services
Office of the Inspector General
Office of Audit Services, Region VII
601 E. 12th St., Room 0429
Kansas City, MO 64106


Mr. Cogley:

Please see the attached document that contains the Department of Health Care Policy and
Financing's submission of responses to the draft report entitled Review ofCosts for Inpatient
Services in the Colorado Medicaid Family Planning Program (Report Number A-07-11-01097).

If you have any questions or comments, please contact me at 303-866-6575 or
kim.nguyen@state.co.us.

Sincerely:




Kim Nguyen
Audit Tracker and Analyst, Audits and Compliance Division
Department of Health Care Policy and Financing




"The mhoion of the Department of Hullh C.r. Policy" Flnanelns 10 '" Improve .."".. 10 <OIt..llo<l""'. quolity hulth co", ....I.,.. for Coloradans"
                                                               colorado·lov/hcpf
                                                                                                     Page 2 of 2




                     Department of Health Care Policy and Financing's 

                                    Initial Response to the 

                         Department of Health & Human Services 

                                 Office ofInspector General 

  Review of Costs for Inpatient Services in the Colorado Medicaid Family Planning Program
                               Control Number A-07-11-01097
                                         August 2011

Recommendation #1:

We recommend that the State Agency:

       refund $2,295 to the Federal Government.

The Department ofHealth Care Policy and Financing's Response to Recommendation #1:

Concur.

The Department agrees to refund the federal financial participation of $2,295 for unallowable
federal reimbursement at the 90-percent rate. This $2,295 in federal financial participation will
be refunded on the CMS-64 in the quarter in which this report is finalized and submitted to the
Department as final.

Recommendation #2:

We recommend that the State Agency:

       strengthen internal controls to ensure that inpatient services costs submitted for
       Federal reimbursement appropriately identify claims that are eligible for
       reimbursement at the 90-percent rate.

The Department ofHealth Care Policy and Financing'S Response to Recommendation #2:

Concur.

The Department agrees that internal controls should be strengthened to ensure that inpatient
services costs submittedfor Federal reimbursement appropriately identify claims that are
eligible for reimbursement at the 90-percent rate.

Current controls require that all claims for sterilization procedures be submitted to the
Department's fiscal agent on paper with the attached sterilization consent form. The fiscal agent
is instructed to deny these claims when the consent form has not been properly completed. The
Department will conduct further training with fiscal agent claims processors to ensure that fiscal
agent stajJunderstand andfollow all instructions regarding the conditions that must be met in
order for the claim to be approved and paid. This training will be conducted no later than
February 2012. The Department will also continue to encourage and enforce correct procedure
and diagnosis coding by Medicaid providers to the fullest extent possible.

                                           Page 1 of 1
